                                      n
                                                                               . -3
                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number:



                 We initiated an investigation after receiving allegations that a researcher' had received NSF
         funding: during a time period that the researcher was out of the country for personal matters.
         Progress reports submitted to NSF regarding this grant indicated that the researcher had been
         involved with the research conducted on this grant.

                The grantee3reviewed payroll and disbursement records and found that the researcher was
         not paid by NSF, or other federal funds, during the time period that she was reportedly out of the
         country for personal matters. The researcher had been paid from the NSF Grant during the previous
         year and had participated in the research conducted on the grant.

                   Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
                                  /

                           /
                           - .
